<html>
<title> - COMMERCIAL SPACE TRANSPORTATION: BEYOND THE X PRIZE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



          COMMERCIAL SPACE TRANSPORTATION: BEYOND THE X PRIZE

=======================================================================

                                (109-2)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 9, 2005

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
20-870                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           CORRINE BROWN, Florida
SPENCER BACHUS, Alabama              BOB FILNER, California
STEVEN C. LaTOURETTE, Ohio           EDDIE BERNICE JOHNSON, Texas
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          JUANITA MILLENDER-McDONALD, 
ROBERT W. NEY, Ohio                  California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
JERRY MORAN, Kansas                  EARL BLUMENAUER, Oregon
GARY G. MILLER, California           ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, Jr., New Jersey
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         BRIAN BAIRD, Washington
TODD RUSSELL PLATTS, Pennsylvania    SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
BILL SHUSTER, Pennsylvania           RICK LARSEN, Washington
JOHN BOOZMAN, Arkansas               MICHAEL E. CAPUANO, Massachusetts
JIM GERLACH, Pennsylvania            ANTHONY D. WEINER, New York
MARIO DIAZ-BALART, Florida           JULIA CARSON, Indiana
JON C. PORTER, Nevada                TIMOTHY H. BISHOP, New York
TOM OSBORNE, Nebraska                MICHAEL H. MICHAUD, Maine
KENNY MARCHANT, Texas                LINCOLN DAVIS, Tennessee
MICHAEL E. SODREL, Indiana           BEN CHANDLER, Kentucky
CHARLES W. DENT, Pennsylvania        BRIAN HIGGINS, New York
TED POE, Texas                       RUSS CARNAHAN, Missouri
DAVID G. REICHERT, Washington        ALLYSON Y. SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 JOHN T. SALAZAR, Colorado
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
VACANCY

                                  (ii)

?

                        SUBCOMMITTEE ON AVIATION

                    JOHN L. MICA, Florida, Chairman

THOMAS E. PETRI, Wisconsin           JERRY F. COSTELLO, Illinois
HOWARD COBLE, North Carolina         LEONARD L. BOSWELL, Iowa
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
VERNON J. EHLERS, Michigan           ELEANOR HOLMES NORTON, District of 
SPENCER BACHUS, Alabama              Columbia
SUE W. KELLY, New York               CORRINE BROWN, Florida
RICHARD H. BAKER, Louisiana          EDDIE BERNICE JOHNSON, Texas
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
FRANK A. LoBIONDO, New Jersey        California
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, JR., New Jersey
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
JOHN BOOZMAN, Arkansas               RICK LARSEN, Washington
JIM GERLACH, Pennsylvania            MICHAEL E. CAPUANO, Massachusetts
MARIO DIAZ-BALART, Florida           ANTHONY D. WEINER, New York
JON C. PORTER, Nevada                BEN CHANDLER, Kentucky
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       JOHN T. SALAZAR, Colorado
JOHN R. `RANDY' KUHL, Jr., New       NICK J. RAHALL II, West Virginia
York, Vice-Chair                     BOB FILNER, California
LYNN A. WESTMORELAND, Georgia        JAMES L. OBERSTAR, Minnesota
VACANCY                                (Ex Officio)
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Blakey, Hon. Marion C., Administrator, Federal Aviation 
  Administration.................................................     8
 Boehlert, Hon. Sherwood, a Member of Congress from the State of 
  New York, Chairman, Committee on Science, U.S. House of 
  Representatives................................................     4
 Douglass, John, President and CEO, Aerospace Industries 
  Association....................................................
 80
 Gomez, Lou, Program Manager, Southwest Regional Spaceport, New 
  Mexico.........................................................    18
 Kelly, Michael, Chairman, Reusable Launch Vehicle Working Group, 
  COMSTAC........................................................    18
 Whitehorn, Will, President, Virgin Galactic.....................    18

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Berkley, Hon. Shelley, of Nevada.................................    32
Costello, Hon. Jerry F., of Illinois.............................    41
Oberstar, Hon. James L., of Minnesota............................    63
Tauscher, Hon. Ellen, of California..............................    67

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Blakey, Hon. Marion C...........................................    34
 Douglass, John..................................................    43
 Gomez, Lou......................................................    50
 Kelly, Michael..................................................    57
 Whitehorn, Will.................................................    72

 
          COMMERCIAL SPACE TRANSPORTATION: BEYOND THE X PRIZE

                              ----------                              


                      Wednesday, February 9, 2005

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Aviation, Washington, D.C.
    The subcommittee met, pursuant to call, at 2:08 p.m. in 
room 2167, Rayburn House Office Building, Hon. John L. Mica 
[chairman of the subcommittee] presiding.
    Mr. Mica. Good afternoon. I would like to call this hearing 
of the Aviation Subcommittee to order.
    We welcome the members attending. Unfortunately, today 
there are a number of conflicting hearings and meetings. We are 
getting a little bit of a late start and I apologize.
    Today's hearing is going to focus on commercial space 
transportation beyond the X Prize. The order of business will 
be, we will hear my opening statement, and then the new Ranking 
Member's opening statement, and then we will hear from Mr. 
Boehlert, he has another commitment. Then if any other members 
do have statements, we would be glad to recognize you, if that 
is acceptable. So with that, let me welcome everyone again and 
offer these opening remarks.
    Today's hearing launches a new era in commercial 
transportation oversight. Just four short months ago, Scaled 
Composites' SpaceShipOne became the first privately operated 
aircraft to launch more than 62 miles into space and return 
safely twice in two weeks with a pilot on board. That 
particular activity launched a whole new era in space and 
passenger participation in commercial space travel.
    This flight also altered our vision of what the aviation 
system of the future will look like. We now see the 
possibilities, including the development of space tourism. U.S. 
spaceports, rapid global transportation, and point-to-point 
commercial space flight services are all possibilities.
    Yet it was not long ago when this was not at all what we 
had envisioned. In fact, prior to the early 1980s, there was no 
commercial space launch industry. Rather, we had private 
payloads that were carried aboard government-owned launch 
vehicles. Then several events prompted development of a United 
States commercial space transportation industry. First, the 
advent of international competition with the creation of a 
European commercial launch services organization. Second, an 
unaddressed demand for launch services with the banning of 
commercial payloads, such as satellites, from flying aboard the 
Space Shuttle after the Challenger disaster.
    In 1984, Congress passed the Commercial Space Launch Act 
which sought to encourage the development of the emerging 
commercial space launch industry and also to facilitate 
compliance with Federal requirements. Around this same time 
licensing activities were consolidated in the Office of 
Commercial Space Transportation within the Department of 
Transportation. This office was transferred to the FAA in 1995.
    By the year 2002, the U.S. commercial space launch industry 
and the services and industries that it enabled accounted for 
more than $95 billion in economic activity. But up until 
October 2004, all commercial launches were conducted without a 
crew or passengers on board.
    Then the X Prize competition was announced to encourage the 
development of human commercial space flight. The $10 million X 
Prize was claimed by Scaled Composites SpaceShipOne with a 
successful completion of a manned commercial space launch 
mission in October of 2004. With this flight, the commercial 
space launch industry entered into the next phase of its 
development: manned commercial space transportation, which 
raises new issues with regard to operations, impact analysis, 
and also infrastructure development.
    In order to encourage further development of commercial 
space transportation, many pushed for an expansion of FAA's 
licensing authority to include licensing space flights with 
crews and also with passengers on board. Therefore, the 
Commercial Space Launch Amendments Act passed Congress under 
suspension of the rules at the end of the last session. This 
Act gives the FAA the authority to license launches carrying 
crew and space flight participants, otherwise known as 
passengers. This recent development also brought the commercial 
space transportation sector under the jurisdiction of the 
Transportation and Infrastructure Committee.
    Obviously, the Transportation and Infrastructure Committee 
views oversight of the commercial space launch industry from a 
very unique perspective. Certainly, supporting this emerging 
industry is in the best interests of the United States, 
especially in light of growing international competition.
    At the same time, ensuring that the FAA fulfills its 
oversight responsibilities with regard to safety is also a 
number one priority, and I know Administrator Blakey, who is 
with us today, takes this all very seriously as well. As the 
industry grows and develops, other issues will also require 
this Committee's attention, including international 
competition, and we see that now, Europe, China, Russia, 
Ukraine, India, and Japan, they all offer commercial launch 
services in competition with United States companies.
    We also have issues of environmental impact analysis and 
mitigation, we have questions relating to application of labor 
laws, we also have questions of security of the launch 
facilities, and finally, the current and future impact of 
commercial space flights and commercial spaceports on our air 
traffic control system and the safe and efficient use of 
navigable air space.
    I am pleased to welcome today the Honorable Sherwood 
Boehlert, who is Chairman of the Committee on Science and an 
active member of this Committee, to share his views with us 
today. We are also pleased to have the Administrator of the 
Federal Aviation Administration, the Honorable Marion Blakey 
with us and we look forward to her testimony. For the first 
time since the passage of the Commercial Space Launch 
Amendments Act at the end of the 108th Congress, Administrator 
Blakey will provide a public review of the FAA's role in 
providing safety oversight of the commercial space 
transportation industry. We also welcome our other expert 
witnesses and appreciate the time they have taken to be with 
us.
    I would like to yield first, as I said, to our new Ranking 
Member and again extend a warm welcome to Jerry Costello, who 
is one of the most senior members of the Transportation and 
Infrastructure Committee. Welcome, and you are recognized.
    Mr. Costello. Mr. Chairman, thank you. I want you to know 
that I look forward to working with you and the other members 
of this Subcommittee and the full Committee.
    We have a full plate and a lot of challenging issues in 
front of us. A few of those issues, the financial condition of 
the airline industry, the financial condition of the Aviation 
Trust Fund, the modernization of the ATC system, just a few 
issues, and then, of course, we will have to deal in the coming 
days and weeks with the President's budget proposal which 
significantly cuts the Airport Improvement program and also 
funding for the ATC modernization program. But those issues 
will be dealt with in another day.
    Today we are here to address the issue of commercial space 
transportation beyond the X Prize. I thank you for calling the 
hearing on this important topic today. I am familiar with this 
emerging industry as a member of the Science Committee, working 
with Chairman Boehlert and our other members on that Committee. 
I also am familiar with the industry because the X Prize 
Foundation is based in St. Louis, Missouri, directly across the 
river from my congressional district. So I am very familiar 
with the X Prize Foundation and the program.
    Many predict, as you stated, that commercial space tourism 
will lead to regularly scheduled manned commercial space 
flights that could generate upwards of $700 million a year in 
revenue in years to come. As with any industry in its infancy, 
we must be certain that it is receiving the proper Federal 
safety oversight without discouraging innovation and 
development.
    I look forward to hearing from the FAA Administrator. I had 
an opportunity to sit down with her earlier today and speak 
with her concerning not only this issue but a number of other 
issues. But I will look forward to hearing from the 
Administrator today concerning the FAA's role in overseeing the 
commercial space industry to ensure the safety of the 
uninvolved public as well as the crew and space flight 
participants.
    As you noted in your opening statement, commercial space 
launch activities will have an impact on our air traffic 
control system as well as the environment. We must make certain 
that the FAA has the proper tools that it needs to ensure the 
safety of the flights for both aircraft and launch vehicles as 
well as to protect the environment and other activities.
    Finally, Mr. Chairman, as you noted, there are several 
commercial spaceports currently under development that will be 
used to support space tourism. This is a good time to examine 
the issues associated with licensing these facilities.
    Mr. Chairman, I again thank you for calling the hearing 
today. I look forward to hearing from our witnesses, and look 
forward to working with you.
    Mr. Mica. Again I thank our Ranking Member and welcome him. 
As I said, he is a senior member of the Transportation 
Committee.
    And as I mentioned the outline of our procedure today, I am 
going to recognize Mr. Boehlert, also a senior member of the 
Transportation Committee, but also Chair, a very important 
Chair in the House, of the Committee on Science. We welcome 
your remarks at this time, and then, as I said, we will go back 
to members on our panel.
    Welcome, and you are recognized, Mr. Boehlert.

TESTIMONY OF HON. SHERWOOD BOEHLERT, A MEMBER OF CONGRESS FROM 
  THE STATE OF NEW YORK, CHAIRMAN, COMMITTEE ON SCIENCE, U.S. 
                    HOUSE OF REPRESENTATIVES

    Mr. Boehlert. Thanks very much, Mr. Chairman, members of 
the Subcommittee. I will be brief because you have got an 
impressive list of witnesses and I know you are anxious to hear 
what they have to say, I am anxious to learn what they have to 
say also. We are following this very, very carefully. I just 
want to use my time to make four simple points regarding 
commercial human space flight.
    First, the issue is important. As I mentioned during the 
floor debate on the Commercial Space Launch Act Amendments last 
year, I am a convert to the cause. When our colleague Dana 
Rohrabacher first started pressing the issue with me, I thought 
the notion of commercial human space flight was, quite frankly, 
a distraction.
    But further research by the Committee, not to mention 
further developments like Burt Rutan's flight to win the X 
Prize, have convinced me otherwise. We do not know yet what 
commercial space flight might lead to, but we need to give this 
new industry a chance to develop.
    That brings me to my second point, which is this, if this 
new industry is to develop, if innovative technologies are to 
be pursued, we need to strike the right balance in regulating 
the industry. The law the President signed last year reflects a 
year of negotiation that strikes the right balance--protecting 
the public without stifling the industry.
    This is an infant industry. It is not the equivalent of 
today's airline industry. The law fully protects uninvolved 
third parties and requires extraordinary disclosures to 
immediate participants, and it sets the industry on a path 
toward greater regulation as it develops. That is the right 
balance and it passed muster with Members who are not exactly 
in the anti-regulatory camp in both chambers of Congress. The 
final wording was worked out between my staff and Senator 
Hollings' staff.
    Now we need to ensure that the FAA is implementing the law 
properly, which is my third point. Our Committee is watching 
the process like a hawk, as I know your Committee is. The law 
needs to be implemented by the commercial space side of FAA in 
the balanced manner intended. Obviously, the commercial 
aircraft side of FAA can inform the process, but implementation 
is not a commercial aircraft venture.
    I look forward to working with the Transportation and 
Infrastructure Committee, on which I also serve, to make sure 
we get this right, and that is my fourth point. Our Committees 
share jurisdiction over the human portion of the commercial 
space flight industry. We must not allow disputes between our 
Committees to magnify any rivalries within FAA or elsewhere. We 
need to move together to implement a balanced and predictable 
regulatory regime quickly and effectively. The T&I Committee 
was helpful in clearing the law for passage last year and I 
hope we can move forward in that same spirit.
    Mr. Chairman, in conclusion, let me just say that this is a 
much more complicated issue than it appears at first blush. We 
learned that the hard way in a year of discussions with a small 
but fractious industry. But thanks to the new law, we now have 
a clear blueprint to move forward in a way that will protect 
the public while helping a new industry get on its feet. And 
that is something that we all applaud. I look forward to 
working with you and this entire panel as the new law is 
implemented. And I thank you for the courtesy of this time.
    Mr. Mica. Thank you, Mr. Boehlert. What we will do, you can 
certainly join us on the panel as your schedule permits.
    Mr. Boehlert. Mr. Chairman, as you indicated at the outset, 
I now run over to chair a hearing of the Science Committee. We 
are dealing with a subject of some import to all of us 
involving CAFE standards.
    Mr. Mica. Okay. Well we thank you again for your input, and 
we look forward to working with you and the Science Committee.
    At this time, are there additional members that seek 
recognition? Mr. Oberstar?
    Mr. Oberstar. Thank you, Mr. Chairman. I have no questions. 
We had a discussion last fall on the House floor and we will 
resume the discussion.
    Mr. Mica. If anyone has any opening remarks, we will revert 
now to them.
    Mr. Boehlert. Mr. Chairman, if I may, Chairman Oberstar and 
I have had discussions for 40 years on Capitol Hill, starting 
as staff members and now as colleagues. I have the highest 
regard and respect for him and I always value his input.
    Mr. Mica. Thank you. I am glad you two are getting 
acquainted.
    [Laughter.]
    Mr. Mica. Mr. Oberstar, you are recognized. Thanks, Mr. 
Boehlert.
    Mr. Oberstar. The issue before us is not the value of 
commercial space travel, which has been well-documented, 
Chairman Boehlert referenced it, Mr. Chairman, you referenced 
it in your opening remarks, as did Mr. Costello. The issue 
simply is safety of commercial passenger space travel.
    In the debate that we had on the House floor--the very 
abbreviated debate in the context of the suspension authority 
which limits debate to 20 minutes a side, no amendments to be 
offered--we explored this subject and heard the litany of 
remarks that are repeated in the testimony by witnesses today. 
Chairman Boehlert began by saying we need to give this industry 
a chance to develop.
    We do not want to stifle this industry, said another Member 
during floor debate, we do not want to stifle this industry 
with over-burdensome regulation in its infancy. There was 
reference to killing the baby in its cradle. The FAA did not 
stifle jet travel in its infancy. The whole jet industry 
emerged very successfully under the watchful eye of the FAA. 
Nor did all composite general aviation aircraft die in the 
cradle. Rather, it was nurtured to successful launch under the 
watchful eye and the intense attention to safety of the FAA.
    All we are asking for, all that I was asking for, that a 
substantial number of Members concurred with, is the FAA to 
take a safety role for the passengers. The FAA's statement 
today is a reference to safety on the ground. If a launch 
vehicle blows up or falls from space, we want to be sure that 
people and structures on the ground are protected. We ought to 
worry about the people on the plane. That is what safety is all 
about. That is what the whole history is of the FAA safety, the 
premier safety agency in the world.
    This legislation now in law, the statutory language sets up 
commercial space travel for what we in this Subcommittee over 
twenty years have occasionally pointed to the FAA's failures as 
being a tombstone mentality: wait until someone dies, then 
regulate. I think FAA has moved beyond that. This law now says 
you do not do anything about safety for eight years or until 
somebody dies, then do something. That is not safety. That is 
not being anticipatory. That is being reactive, and that is 
what offends me.
    I proposed language, which, frankly, I thought was way too 
lenient, that would require the FAA in issuing licenses to 
establish minimum standards to protect the health and safety of 
crews and passengers, do not worry about the people on the 
ground, and require the FAA, in setting standards, to take into 
consideration, in the language of the amendment I would have 
offered had we been included in any of those preliminary 
discussions, ``the inherently risky nature of human space.'' 
That is all. A caveat that, God forbid, we would never put in 
language today.
    In defense of the pending bill, which is now a law, those 
who were advocating it said, oh, well, everybody who travels in 
space is going to have to sign a waiver saying that they give 
up any claim and understand the risks they are engaging in. How 
many people do you think would sign on to fly a Metroliner if 
they had to sign such a waiver, a 19 passenger aircraft people 
are afraid to travel on now? How many people do you think would 
sign up to fly on a 747 if they had to sign that waiver today, 
knowingly sign this waiver, you alone are responsible for 
yourself and you have no claim? Nobody. That is nonsense.
    This is not an attempt on my part to stifle human travel in 
space for commercial purposes, but to give the FAA, the world's 
premier safety agency, a role in setting standards for safety 
of passengers and crew. All FAA has now is to worry about 
people on the ground and let those who want to fly sign their 
life away. That is not being responsible and that is not 
carrying out your responsibilities to the traveling public.
    We will go through this hearing, we will hear what people 
have to say, but I come back to the point we need at least a 
framework of safety around commercial space travel. By no means 
would that language stifle. In fact, had we the majority I 
would be writing something much more safety oriented, but for 
the moment we will deal with this. At least put this little 
framework around safety in commercial space travel. Thank you, 
Mr. Chairman.
    Mr. Mica. I thank the gentleman. Do other members seek 
recognition on the majority side? The minority side? Ms. 
Berkley?
    Ms. Berkley. Thank you, Mr. Chairman, for holding this 
hearing. I want to welcome Mr. Costello as the new Ranking 
Member of our Subcommittee.
    Las Vegas is not only the entertainment capital of the 
world, but north Las Vegas is the home of Bigelow Aerospace. 
The company's goal is to bring human space travel into 
commercial business. Bigelow Aerospace, working in conjunction 
with NASA, is on the cutting edge of space technology. In 
November of 2005, not many months from now, the company will 
launch its Genesis spacecraft, a third scaled version of its 
inflatable space habitat technology, and will launch again in 
2006. These inflatable test spacecraft will be designed to last 
for several years in orbit.
    Robert Bigelow, the company's founder, is passionate about 
commercial space technology and is committed to producing 
technology that is safe, reliable, user friendly, and 
economical. Mr. Bigelow is providing me with a statement 
regarding the commercial space travel and the FAA's oversight 
duties, which I will submit for insertion in the record and I 
will provide our first witness a copy of that also.
    Mr. Chairman, this is exciting technology and we must 
strike a balance between FAA's oversight and private 
innovation. The oversight and regulation of commercial space 
travel must be sufficient to ensure safety but must not stifle 
ingenuity.
    I look forward to testimony of our witness, who I look 
forward to hearing every time she comes, and learning more 
about this issue. Thank you, Mr. Chairman.
    Mr. Mica. Thank you. Are there other members who seek 
recognition? Mr. Carnahan, welcome to the Subcommittee. You are 
recognized, sir.
    Mr. Carnahan. Thank you, Mr. Chairman. Since this is my 
first Subcommittee hearing, let me say, first, how happy I am 
to be here to work with you, Ranking Member Costello, whose 
district is right next to mine back in the St. Louis area, and 
everyone on this Aviation Subcommittee.
    The economy of my home region in St. Louis has a long 
history to the aviation industry. It was Charles Lindbergh and 
the Spirit of St. Louis that won the $25,000 prize in 1927 for 
his historic flight from New York to Paris. Lambert-St. Louis 
Airport has over $5 billion economic impact to our St. Louis 
region. In addition, both American Airlines and Boeing are 
major regional employers. Needless to say, issues under the 
jurisdiction of this Subcommittee are especially important to 
my area of the country and the people who live there. I am 
honored to be here.
    The U.S. commercial space transportation industry is at an 
exciting stage of innovation and development. Given the recent 
activity, this hearing on the future of the industry and the 
FAA's role regarding safety, oversight is very timely. I look 
forward to hearing the testimony, and have a great day.
    Mr. Mica. Any other members seek recognition at this time? 
If not, I welcome members to submit statements for the record. 
We will leave the record open for a period of, Mr. Costello 
moves ten days?
    Mr. Costello. Ten days.
    Mr. Mica. Without objection, so ordered.
    We will now turn to our second panel. We have the Honorable 
Marion Blakey, who is the Administrator of the Federal Aviation 
Administration, here to testify. Welcome back. We are pleased 
to see you and are anxious to hear your opinion and ideas on 
this important subject. You are recognized.

  TESTIMONY OF THE HONORABLE MARION C. BLAKEY, ADMINISTRATOR, 
                FEDERAL AVIATION ADMINISTRATION

    Ms. Blakey. Thank you, Mr. Chairman. I have to say how 
delighted I am to be here today. It is my pleasure to appear 
before you for what I understand is the first hearing of the 
109th Congress for this Subcommittee. I also want to 
congratulate the new members of the Subcommittee, and of course 
the new Ranking Member, Congressman Costello.
    Secretary Mineta and I truly value our partnership to make 
our nation's aviation and space transportation systems the 
safest and most efficient in the world, and that partnership is 
no more critical than with this Committee. Lastly, I 
particularly appreciate Congressman Boehlert's leadership and 
enthusiasm for commercial space.
    Commercial space transportation, a phrase that is 
relatively new to our lexicon, brings us here today. The space 
you and I grew up knowing dealt largely with final countdowns, 
and Jules Bergman. Space was a place where you saw flickering 
black and white photographs, images with leaps of mankind. Not 
any more. America's love affair with space is vicarious no 
more. There is a bold new group of people, astropreneurs, and 
their aim is to bring space flight into everyone's grasp.
    But in the larger context, commercial space transportation 
is much greater than the thrill private citizens will 
experience. It is an important step for transportation and for 
humanity. It is a recipe that is going to lead to greater 
exploration, innovation, and safety. Our job at the Department 
of Transportation is to enable the development of human space 
flight industry while protecting public safety. Given the pace 
at which this fledgling industry is developing, that is going 
to be a real challenge.
    In many ways, the environment we are in is similar to the 
barnstorming days of early aviation. Those early fliers took 
great risk as part of the deal. People who flew with the 
pioneers also flew because they loved the thrill, and it opened 
up a whole new world. Just as we learned in aviation, increased 
experimentation and testing can and will lead to significant 
advances in safety.
    But that kind of progress takes both time and experience. 
It was more than 20 years after the Wright brothers' first 
flight before Government regulations concerning aviation were 
put into place, and I will tell you, they were relatively 
primitive and simple at that point. Safer designs and 
operations were the eventual result, and continents, once 
separated by months long voyages, would suddenly be only a few 
hours apart.
    Space flight, I think, is following a similar path. Since 
the passage of the Commercial Space Launch Act in 1984, there 
have been 168 licensed launches, and the uninvolved public has 
experienced no fatalities, serious injuries, or significant 
property damage. That is an impressive safety record.
    I would like to compliment the FAA's Associate 
Administrator for Commercial Space Transportation, Patti Grace 
Smith, who is sitting here behind me, and her team, and the 
entrepreneurs who have worked so hard to get this endeavor off 
the ground. Believe me, I think it has been a lonely enterprise 
part of that time, but their work has definitely paid off. I 
also want to emphasize the FAA's commitment to this endeavor. 
We will continue to draw on our long experience and our very 
formidable resources to advance commercial space 
transportation.
    The Commercial Space Launch Amendments Act of 2004 
establishes a framework, a phased approach, if you will, for 
the emergence of this mode of transportation. It is a 
streamlined permitting process, similar to aviation's 
experimental airworthiness certificate which, as you know, 
allows aircraft designers and manufacturers to test new ideas 
as they come along. As this critical phase evolves to a point 
where license determination is warranted, our safety review of 
the vehicle's operations will be more in-depth and certainly 
more comprehensive.
    The Commercial Space law of 2004 also allows the FAA to 
oversee space tourism entrepreneurs without hampering our 
ability to enforce public safety. For piloted vehicles, the FAA 
treats the crew as part of the flight safety system. This means 
that the FAA protects the crew, not for its own sake, but for 
the protection of people on the ground.
    In short, those on board will receive more protection 
because of the FAA's concerns for the safety of the uninvolved 
public. The law calls for this approach and calls this approach 
acceptable for what they consider, we consider, ultra hazardous 
activity. Passengers on early flights will be engaging at their 
own risk in an activity that is comparable to extreme sports, 
such as mountain climbing.
    As with any ultra hazardous pioneering activities, there is 
an unfortunate likelihood that lives may be lost. During this 
period, though, the FAA and the industry will gain significant 
operating experience and will be in a better position to 
determine what standards should be required.
    To date, America has made tremendous strides. The $10 
million Ansari X Prize was awarded to the crew of Scaled 
Composites' SpaceShipOne. Pilots Brian Binnie and Mike Melville 
joined forces with Burt Rutan and Paul Allen to make aerospace 
history with the first private manned vehicle to reach space. 
The infrastructure to make it happen is also well underway. We 
have licensed and regulated launch sites in California, 
Florida, Virginia, and Alaska. A fifth site in California's 
Mojave Desert is the Nation's first inland location to receive 
a license. And you will be pleased to know that we are in 
discussions with Oklahoma, New Mexico, and Texas about their 
license applications as well.
    So, as you can see, the short view is exciting and a risky 
picture. However, it is the longer view that will not only 
drive this industry forward, it will create transportation 
advances for all. What might now be viewed as adventure or 
sport for the barnstormer and the risk-taker is what leads to 
yet one more giant step for mankind.
    The advent of greater access to space, more efficient 
travel, greater opportunities for exploration, and the chance 
at expanding the limits of human experience are there for the 
taking. What is more, we are realizing that they are well 
within our grasp. And that, history tells us, means it is going 
to happen much sooner than we think.
    With that, Mr. Chairman, I complete my remarks. I look 
forward to any questions.
    Mr. Mica. Thank you. I have a couple of quick questions and 
then will defer to other members.
    First, Ms. Blakey, does the FAA have all of the tools and 
authority that you feel are needed to ensure the safety of the 
so-called uninvolved public?
    Ms. Blakey. I think we have a good range of tools. Again, 
when you look at the safety record to date, 168 launches with 
no blemish on safety, I think it tells us that the license 
system has been working well, and it is a robust system. In 
addition to that of course, the new Act also gives us 
additional tools. So at this point and this stage, I would 
stress, in the industry's development, I think we are all 
right.
    Mr. Mica. Good. The second question is really two parts. 
First, I spoke a little bit about the impact of commercial 
space flights and commercial spaceports on the air traffic 
control system. And within our sort of range, that is something 
I would like to know what problems you anticipate and how we 
handle that.
    The second thing, once you get outside of our airspace, 
what steps are we now taking as far as international agreements 
and such, or where do we hang our future as far as 
participation in outer space, which we do not control, with 
other countries? So, a two-part question.
    Ms. Blakey. I am not sure I can see far enough into the 
future for the second part to be very definitive. But what I do 
see right now is that the current system in terms of air 
traffic control is working very well. Within the corporate 
culture of FAA, it is obviously very easy for us to pull 
together and ensure that there is close coordination at the 
very earliest stage of any projected launch. It is working 
well.
    We essentially control that airspace, issue notams to 
pilots, put in place TFRs, and to date, I will say it has 
occurred without any hiccups. We have also a pretty good 
blueprint for this as we see more and more of these kinds of 
launches. Reusable launch vehicles are coming into use, not 
only going up but coming back down and entering the airspace as 
gliders often with characteristics of airplanes. I think we 
will be able to use that blueprint that we have worked very 
hard on to make sure that it really does not cause disruption 
in the system.
    In terms of international activities, what we see there, of 
course, is that right now we have got some countries that have 
put all of their resources--I don't mean to say all--they have 
put significant resources from the national standpoint behind 
launches. So the concept of private and commercial is very 
different there than it is here. It is essentially a national 
enterprise there. And they have had some real success.
    But I will say that we have a lot of pride given that we 
have also seen in recent years the growth here again in some of 
the launches. We have had success there. So, it is a mixed 
picture and certainly issues of authority, jurisdiction, et 
cetera, are ones that we will be working with a time goes on. 
The United States has never had any difficulty so far in 
staking out outer space, and I would anticipate we could 
continue that.
    Mr. Mica. Before I get to my other question, it is 
interesting, and Mr. Oberstar might be interested in this, I 
thank everybody for their cooperation on this Capetown Treaty, 
where, we do not pass treaties, but where we modified Federal 
law to create a registry so we could participate in that 
registry. I never realized when we did it that not only did it 
apply to airplanes and airplane engines, but also to 
spacecraft.
    So, for once we are sort of ahead of the game, at least in 
the commercial pecking order and financing and lien and title 
of this equipment. Usually, if you can finance it in the 
private sector, you can sell it. So we may be a little bit 
ahead of the game from that standpoint. Just an aside.
    The last question that I have is, would you anticipate that 
we would have a minimum age for space flight, because you have 
to give I guess informed consent under the legislation? How 
would you handle the age question?
    Ms. Blakey. I think the requirements of any kind of 
sensible informed consent regime would prevent people under the 
age probably of 18, which seems to be the consensus on that, 
from being able to enter into this kind of risky venture. So I 
think we will be covering that fairly clearly in those 
guidelines.
    Mr. Mica. That is interesting. In 25 years they are going 
to come back and dig up the testimony of Administrator Blakey 
on February 9, 2005, that said no one under 18 should fly in 
space. I wonder how that will be received?
    Ms. Blakey. Hopefully, in 25 years the risk factors will be 
dramatically different and it will be commonplace, if that is 
the case.
    On your point about the international arena, too, I was 
remiss in not saying that in a way we are also ahead of the 
game in the area of reusable launch vehicles. Because of the X 
Prize and now the X Prize Cup coming to New Mexico, we are 
seeing a lot of international innovators and entrepreneurs and 
companies wanting to come to this country to set up for that 
industry. So I think we are actually serving as a catalyst in a 
way that is going to be very exciting.
    Mr. Mica. Thank you. Mr. Costello?
    Mr. Costello. Thank you, Mr. Chairman. Administrator 
Blakey, let me ask you for the record to detail what the FAA 
licensing procedures are especially when it comes to regarding 
safety and the environment. What does an applicant have to go 
through to apply for and be granted a space launch operation?
    Ms. Blakey. There are five essential elements that we 
analyze, and there is a great deal of depth in each one of 
these, but I would simply tick off the fact that, first, we 
have to be satisfied that there are no policy issues involved 
with a particular launch. This has to do with national security 
and broad issues. The second is the payload. That has to be 
something that is appropriate and again without significant 
hazard, and so the payload issues have to be satisfied.
    The most intensive and robust of course is the third 
factor, and that is, if you satisfy the first two, we examine 
whether it is going to be a safe launch. There we have a good 
bit of depth because we really look at it from the standpoint 
of system safety and do a tremendous amount of analysis 
therefore of all of the parameters of that flight. It goes to 
whether or not, in terms of looking at risk, looking at the 
hazards, and mitigation of those, has that been satisfactorily 
done. One has to look at the operating parameters. Often we 
have to require changes from an operational standpoint so that, 
for example, there is not a trajectory that might put the 
uninvolved public at risk.
    And then, of course, we also look at the broad issue of 
whether this is an acceptable level of risk in terms of 
commonly understood standards. We have a very high requirement 
there as well. So with all of that in mind, there are two other 
factors in a launch license, and those go to the issues of 
environmental concerns, and then financial responsibility. We 
ask is this launch viable?
    Mr. Costello. You mentioned on page two of your testimony, 
and I will not go through the whole paragraph, but you say, 
``As you may know, commercial space launches are inherently 
dangerous and risky operations,'' and I think we all 
acknowledge that. You also indicate further in your testimony 
that since 1989 the FAA has classified 10 percent of its 168 
licensed launches as failures. I wonder, if 10 percent of the 
168 launches that were licensed were classified as failures, 
what is the definition of a failure?
    Ms. Blakey. The definition of a failure is a launch that 
had to be aborted, that it had anomalies in it, or there were 
problems that did not justify it proceeding. That would be a 
failure. It is very different of course from an accident where, 
again, you do have injury, loss of property, or, in the worst 
case, loss of life.
    Mr. Costello. In response to the Chairman's question about 
the FAA's authority, flexibility to either regulate or to 
address the issue of safety, to Mr. Oberstar's point, obviously 
the legislation addresses the people who are on the ground, not 
the crew or the passengers. I wonder, the same question, do you 
believe that the FAA has the authority under the existing 
legislation and the flexibility, when you say that safety is 
the number three and the primary concern in the five criteria, 
do you have the flexibility and the authority that you need now 
to make certain to the best that the Agency can that the crew 
and the passenger is safe as well as the people on the ground?
    Ms. Blakey. I believe that the license process, which, as I 
say, is highly detailed and involves not only the kind of 
scrutiny I just detailed, but involves oversight and monitoring 
throughout the launch itself, is a very robust one and allows 
us a great deal of latitude in ensuring a sound performance.
    What I would be reluctant to see us do is to try to 
stipulate at this stage in the industry, design standards or 
operating requirements. That really would have to be then one 
size fits all for operations that we do not even know what they 
are yet and the vehicles are not yet invented and made. I think 
that is where we would find it difficult to engage. But the 
concept of ensuring a sound performance from a safety 
standpoint under the launch regime through licensing and now 
permitting, I think will work.
    Mr. Costello. Mr. Chairman, thank you.
    Mr. Mica. Thank you. Do other members seek recognition for 
questions? Mrs. Kelly?
    Mrs. Kelly. Thank you, Mr. Chairman. I just have two 
questions. I question the licensing process. Everybody here 
probably knows this, but I would like to know how long that 
licensing process takes and I would like to know what the cost 
is.
    Ms. Blakey. All right. Under the new legislation, we need 
to have a license completed in 180 days. The permit process, 
which again is new and is now envisioned, is 120 days. Now 
there is a great deal of work that goes on before you formally 
enter into the process and our staff engages very heavily in 
consultations and the kind of discussion that gives a common 
view when the application is formally made.
    That said, the cost? I would be very hard pressed to 
conjecture that. The next panel that is coming up I suspect 
could give you some solid examples from their own direct 
experiences in the private sector. I cannot tell you. However, 
the law is also relatively new and the cost differs I think 
significantly whether you are talking about the vast majority 
of launches so far which involve expendable launch vehicles 
versus the new reusable launch vehicles.
    Mrs. Kelly. Thank you.
    Mr. Mica. Thank you. Additional questions? Ms. Johnson?
    Ms. Johnson. Thank you, Mr. Chairman, and thank you for 
having this hearing. I apologize for being late. I had three 
meetings at the same time. Maybe this has been explored, and if 
it has been, I apologize, but I am very concerned about safety 
in this commercial flight trips. I wonder in the licensing if 
you have standards for the safety of the vehicle?
    Ms. Blakey. We look very closely at the safety of the 
proposed vehicle in terms of its operating parameters, in terms 
of some of the critical safety systems, engines, for example. 
Propulsion is one of the things that we certainly focus on in 
great detail. We try to understand why the design is set up the 
way it is, what its performance envelope is, and then we try to 
make sure that it will, in fact, deliver without a high degree 
of risk to the public on whatever the proposed flight path is.
    So there is a lot of work that goes into that without our 
trying to anticipate what a vehicle should be or should look 
like. That is what we want to allow the industry itself to come 
forward with.
    Ms. Johnson. Sure. In terms of the pilots, do they need the 
same criteria or knowledge base as a regular pilot, or will 
there be extra training?
    Ms. Blakey. At this point, I think again we are going to be 
looking at this case-by-case. Now I will tell you, it would be 
hard to find folks more experienced than Mike Melville and 
Brian Binnie, and they are our first two space pilots, if you 
will. But I think what you are likely to see, and it's 
certainly our expectation, would be that the people who are at 
the controls will be highly experienced, many with test pilot 
experience and other things that are analogous in terms of 
their aviation experience as they step up. We have not set 
particular certificates that are required yet.
    Ms. Johnson. One last question. Are these flights without 
liability?
    Ms. Blakey. No, there is definite liability involved. What 
I think is a sensible approach that we have taken so far, and 
it is continued under this legislation, divides that liability. 
There is essentially risk-sharing here, if you will. We require 
an operator that comes forward for a launch license to take out 
the first $500 million of insurance. So they have to step up to 
the table. The government now indemnifies that launch for an 
additional $1.5 billion. And should there be a catastrophic 
event that would go past that cumulative total of $2 billion, 
then the responsibility reverts back to the operator.
    Ms. Johnson. I said that was the last, but one more. What 
do you have to do to beef up your staff to accommodate the 
additional expertise for this?
    Ms. Blakey. The expertise on our staff?
    Ms. Johnson. Yes.
    Ms. Blakey. You know, we have a broad range of scientists 
and engineers, people who come to this from the standpoint of 
missile experience with early launches and the development of 
the missile industry, as well as people whose experience is 
long and strong in aviation. I think that kind of cross-section 
of experience is what we will look to enhance and increase with 
people coming to it from an air traffic control standpoint as 
this whole industry moves forward. I hope we will be able to 
attract some people from the industry to join us so that, 
again, the partnership is as strong as it can be.
    Ms. Johnson. So the workload at this point is not heavy 
enough to require additional bodies and minds?
    Ms. Blakey. We are adding some staff now and we are hoping 
to have the kind of workload that would call for adding to the 
staff on an incremental basis. But I would return to one point, 
and that is, we have a very strong corporate partnership in our 
support for commercial space. We have everything from the 
medical research capabilities of CAMI out in Oklahoma City, we 
have the tech center that can do interesting and important 
research that can support this, as well as all of the expertise 
that comes to it from the aviation safety and air traffic 
control side, and our airport regulators.
    So, with all of that, it is not just the Office of 
Commercial Space. They are the lead, they are the ones who have 
the authority, but they draw on this expertise in a corporate 
partnership. We have got an integrated product team now that 
brings all those people together to support the office.
    Ms. Johnson. Thank you very much. Thank you, Mr. Chairman.
    Mr. Mica. Thank you. Other members with questions who seek 
recognition? Mr. Oberstar?
    Mr. Oberstar. Thank you, Mr. Chairman.
    Administrator Blakey, thank you for your distinguished 
presence among us. You always shed light and bring grasp and 
understanding of aviation issues to our Committee and to the 
public, the aviation community. I realize this is a little 
difficult position for you to be in, addressing safety and 
passenger space travel. I read with some great interest your 
statement at Page 6, ``government requirements for building or 
designing an aircraft date from 1926.'' Do you remember who it 
was that initiated those regulations?
    Ms. Blakey. I can tell you what they were but I cannot tell 
you who. Perhaps you could. I will bet you can.
    [Laughter.]
    Mr. Oberstar. Yes. It was an Assistant Secretary of 
Commerce who was slapped down by the industry and by the 
Secretary of Commerce and his White House for having the 
audacity to suggest that the government should regulate air 
travel, the safety of air travel. You will stifle this 
industry, they said.
    And in the 1920s aircraft had the bad habit of losing a 
wing in flight, losing an engine in flight. So this Assistant 
Secretary of Commerce pulled his horns in and bided his time 
and he became Secretary of Commerce, and then he launched the 
regulations. Herbert Hoover--Hoover insisted on the regulation 
of safety in aviation less for protecting those who would 
travel than for advancing the cause of commercial aviation. 
``If we do not make it safe,'' he said, ``people will not use 
it.''
    So now we are at the dawn of another era 80 years later. As 
President, Hoover insisted pressing the agenda on safety. He is 
not given much credit for it, as something else happened along 
the way to obscure his presidency. But I will always give him 
credit for that vision of what was needed in the service of 
industry and, incidentally, service of safety for the traveling 
public. Now safety is imbedded in our mind and heart and the 
fabric of the FAA.
    As I said, it is the premier agency and other aviation 
agencies take their lead from the FAA and other countries of 
the world look to the FAA. Brazil would not approve an Embraer 
aircraft until the FAA first had certified it. Airbus, for all 
of its competition with Boeing, knows it cannot put an aircraft 
in the air--I remember a meeting with Airbus in Toulouse when 
the president, Jean Pierson, said, ``It is extremely important 
for us that the FAA accepts our design, because when it does we 
can sell this airplane anywhere in the world.'' All right. Now, 
with that background, give me an example of a safety regulation 
that would stifle this industry.
    Ms. Blakey. I think the concern about a regulation that 
would be prescriptive is that we are not anticipating some of 
the kinds of innovation, some of the kinds of operations that 
could be, should be explored and could be, in fact, the real 
making of this industry. We have only had--
    Mr. Oberstar. What would you do, what would FAA do that you 
would sign off on that would stifle this industry from the 
standpoint of safety?
    Ms. Blakey. We would certainly try not to. But I think the 
concern is we do not know enough to set out a regulatory regime 
yet for operations and for the design of vehicles that we do 
not know what they are yet.
    Mr. Oberstar. Do you think it is a good idea to wait until 
there is a crash and a fatality to issue such regulations?
    Ms. Blakey. We will not wait until there is a crash. One of 
the things that I really do believe--
    Mr. Oberstar. But you are prohibited from doing anything 
until that by the law.
    Ms. Blakey. The licensing regime and the permitting regime 
gives us great latitude.
    Mr. Oberstar. You know, I disagree with you. FAA has the 
skill, the expertise, the understanding of aerodynamics and 
design to be able to look at a vehicle and say, you know, 
consider the context of the language that I offered, 
``inherently risky nature of space travel'' and say this is 
inherently risky, but this is really crazy, you ought not to do 
this.
    Ms. Blakey. I think the license regime, I think the 
permitting process gives us great latitude to do that. One 
thing I will stress, and I very much appreciate the confidence 
that your remarks signify in the FAA, the FAA has a long and 
important reputation for ensuring safety that we will not 
compromise in any way. That will continue. And the vehicles 
under which we can do it currently I think allow for us to do 
that job and do it very well. It will be on a tailored basis, 
it will be on the basis of each one of these as they come to us 
because we cannot anticipate what they will look like. But you 
can believe me, we will oversee safety.
    Mr. Oberstar. You said in your testimony that you will 
regulate safety to protect people on the ground. That would in 
my mind indicate that the FAA would look at a design and a 
structure and, if it found a design feature that was flawed, 
likely to cause a crash, and your engineers know what they are 
looking at when they look at conventional aircraft and say, you 
cannot do that, that if it were likely to cause a crash over a 
populated area, you would intervene.
    Ms. Blakey. Absolutely. We would not grant a permit or 
license.
    Mr. Oberstar. So why would you not intervene in a design 
flaw that is likely to endanger lives of passengers aboard an 
aircraft that is going to the edge of space?
    Ms. Blakey. The two things are inexorably linked.
    Mr. Oberstar. Well, you are prohibited from doing that 
under the law.
    Ms. Blakey. I think what we are concerned about--
    Mr. Oberstar. But given the authority, you could do that, 
could you not, in a way that would not stifle the advancement 
of science?
    Ms. Blakey. I think the protection of the uninvolved public 
goes a long way toward protecting those who are in the craft 
itself. What I will say though--
    Mr. Oberstar. Do you think a simple waiver of 
responsibility is sufficient to protect people?
    Ms. Blakey. I think it informs them. And I think as adults 
who want to engage in risky exploration, and that is what this 
is. This is not transportation and I think it is a mistake to 
make analogies to transportation, people are not using it to 
get from here to there. This is not routine, this is much more 
comparable to climbing Mount Everest than it is to anything 
else.
    Mr. Oberstar. I think you and the others miss the point. 
Experimentation with human lives, we do not allow that in the 
laboratories of the Food and Drug Administration or of the 
National Cancer Institute. Why should we allow it on space 
travel?
    Ms. Blakey. We do not prohibit all sorts of risky sport 
activity, all sorts of risky exploration. In fact, this country 
thrives on it.
    Mr. Oberstar. Oh, I think you miss the point. Your agency 
is the premier agency for safety. You ought to accept the 
responsibility and not be abdicating that responsibility.
    Ms. Blakey. The FAA, believe me, will always step up on 
safety. And I think as we look at this over time, we are going 
to see that the authority we have is flexible enough to address 
most of the concerns we can anticipate. There will be some none 
of us will be able to anticipate.
    Mr. Oberstar. What you are saying to me, though, in 
roundabout fashion, is that we are not able to conjure up 
regulations you would issue at this time that would stifle the 
advancement of this technology to launch people in commercial 
passenger travel in space.
    Ms. Blakey. I think that what we think is that we have the 
authority we need currently as far as we can see. And let me 
also just say this. This legislation is brand new, passed 
December, as you point out. We are working with it ourselves. 
Over time, if we find that it is hamstringing us, if it is 
causing problems that we can see from a safety standpoint, 
believe me, we will be the first to stick up our hand, no 
question about it. But at this point, from what we can see, I 
think we believe we can make this work.
    Mr. Oberstar. Well, I have great lung power, but I will not 
hold my breath that long.
    [Laughter.]
    Mr. Mica. I thank the gentleman. Are there any further 
questions for this witness?
    [No response.]
    Mr. Mica. I thank you, Ms. Blakey, for being with us and 
for your testimony today. Sort of an exciting launch of our 
Subcommittee hearings and actually a new era. And given my gene 
pool, I do not think I will be here in 2030, but I have asked 
Holly to check out your testimony in 2030 in light of some 25 
years.
    Ms. Blakey. I hope we will both be around to check that 
out.
    Mr. Mica. We thank you and we will excuse you at this time.
    We now call our third panel, our last panel, and thank them 
for being patient. We have four witnesses here.
    First, we have Mr. John Douglass, president and CEO of 
Aerospace Industries Association; we also have Michael Kelly, 
who is chairman of the Reusable Launch Vehicle Working Group, 
COMSTAC; we have Mr. Lou Gomez, program manager of the 
Southwest Regional Spaceport in New Mexico; and then finally, 
Mr. Will Whitehorn, president of Virgin Galactic. I would like 
to welcome all of our witnesses. If you have any lengthy 
statements or information you would like to be made part of the 
record of this hearing, just request so through the Chair.
    We will recognize first and welcome back Mr. John Douglass 
with the Aerospace Industries Association. Welcome, sir, and 
you are recognized.

   TESTIMONY OF JOHN DOUGLASS, PRESIDENT AND CEO, AEROSPACE 
   INDUSTRIES ASSOCIATION; MICHAEL KELLY, CHAIRMAN, REUSABLE 
   LAUNCH VEHICLE WORKING GROUP, COMSTAC; LOU GOMEZ, PROGRAM 
    MANAGER, SOUTHWEST REGIONAL SPACEPORT, NEW MEXICO; WILL 
             WHITEHORN, PRESIDENT, VIRGIN GALACTIC

    Mr. Douglass. Thank you, Mr. Chairman. I want to begin by 
thanking you for having this hearing. This is an important 
subject and I appreciate the fact that you and Mr. Costello are 
taking the time to do this. With your permission, sir, I would 
like to enter my written statement into the record.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record.
    Mr. Douglass. What I am going to try to do is very quickly 
summarize some points that were in my statement. I have also 
made a couple of notes from listening to the discussion that 
has gone on before and I will just try and add a few comments 
that might be helpful to the Committee relative to the 
discussions that went before me.
    The first thing I think to point out that needs to be 
pointed out is that while this commercial space part of the 
aerospace industry is a very important and vital part, it is 
still a very small part of our overall aerospace industry in 
the United States. In 2004, we had total sales of about $160 
billion, $38 billion of it were in space related products, $20 
of those $38 billion were done by the Department of Defense, 
$16 billion were done by NASA, and $2 billion were done in the 
commercial sector. So, $2 billion out of $160 billion.
    But it is a part of our future that we hold to be very 
important, and it is also very tightly laced into what we do as 
a society on a day to day basis. More and more of our 
communications, of our banking information and so on is going 
through commercial space products.
    To the discussion that went on before, it is important to 
note that of all of the launches that were mentioned in the 
previous testimony, only one of those launches involved humans. 
All the rest were non-rated systems. And it is likely that for 
a considerable period into the future the preponderance of 
commercial space launches are going to be unpopulated launches, 
and that is an important thing to remember as you look at the 
regulation of this whole part of the industry.
    It is also important to note the dependence of our economy 
and our national security on commercial space. That is a 
growing dependence and it is a dependence that is vital both to 
our national security and to our economic security. It is also 
important, Mr. Chairman, to note that this part of our 
industry, just like the aircraft production base, tends to be a 
cyclic part of our production.
    As you are I am sure aware, when commercial satellites were 
first begun to be launched, they had fairly short lifespans, 
they had to be launched again in fairly small increments of 
time. Today, we can put commercial space systems into orbit 
that can last ten, fifteen years, fairly long periods of time. 
And what happens is the market tends to get saturated, then 
there will be a few lean years, then opportunities again open 
up.
    It is also important to note in that context, in the 
beginning of this part of the space industry, the United States 
was pretty much the sole provider of commercial launch services 
to anybody in the world that wanted to go into a commercial 
space endeavor. Because of the entry of other nations into this 
arena, we are now at about 50 percent of the global market.
    It is important for us to recognize that we do not want to 
see the U.S. market share of this part of our industry decline 
further. Today, in the commercial space arena we have, in 
addition to the United States, we have the Russians, we have 
the Chinese, we have the Indians, we have the Brazilians, and 
probably our biggest competitor is, of course, the EU nations.
    I want to also knit a couple of things together about the 
discussion that went on before. One of the things that our 
industry is most concerned about for the future is the 
development of a new air traffic control system for our 
atmospheric traffic of the future. It is very likely that a 
significant portion of that system is going to be a space-based 
system.
    We certainly do not want to tie the Administrator's hands 
in how that is constructed. It could be a space-based system 
that was shared with the Department of Defense, it could be one 
that is an FAA operated network of its own, Chairman Blakey or 
whoever comes after her may want to have their own 
constellation, but it could be a commercial constellation which 
provided space-based imagery to our system, and we certainly 
would not want to rule that out.
    To the discussion about the safety issues that were 
mentioned earlier, it is too bad that Mr. Oberstar had to leave 
because I frankly would be interested in his response to our 
long-range vision of how this should operate. The key issue 
that we see today, sir, is that we want the system that 
eventually evolves for commercial space travel to as closely as 
possible mimic the system that we have for atmospheric air 
travel.
    In other words, we would like to see a series of 
certificates established, a type certificate for the system 
that would be the launch system, and an operator's certificate 
for operating that system. Now you could imagine, sir, if we 
had to get a separate license every time an airplane took off 
in the United States, it would be a gillion licenses, and we 
cannot do that. That is why we have a type certificate and an 
operator's certificate.
    And eventually, we are going to get into a regime where the 
number of commercial space launches will be so numerous that we 
will not be able to do that mission on a mission-by-mission 
basis, we will have to have these type certificates. The sooner 
we can move to that regime, the better that industry would like 
it.
    I think my time is up, sir. I would be glad to answer any 
questions along any of these subjects.
    Mr. Mica. Thank you. We will defer questions until we have 
heard from the other panelists.
    I will now recognize Michael Kelly, Chairman of Reusable 
Launch Vehicles Working Group. Welcome, and you are recognized, 
sir.
    Mr. Kelly. Thank you very much. I will greatly abbreviate 
my comments, which are twofold in their focus. The first is to 
tell you the direction that we believe that the emerging 
private commercial space transportation industry is taking, and 
this is hereafter referred to as the industry, and then on how 
the industry has planned to address the issues left open by the 
Commercial Space Launch Amendments Act of 2004.
    Now for the first time since it began many, many years ago, 
this industry actually is emerging. But we have a long way to 
go before there is such a thing as an ongoing, revenue-
producing industry and even the smallest of stumbles could add 
years of delay.
    The main thing that has happened over the past couple of 
years in the way of establishing a market for this industry has 
been the recognition that personal space flight, the conveyance 
of paying passengers into space, is now the only reasonable 
market that will sustain initial development of private space 
transportation systems. Burt Rutan demonstrating his reusable 
space ship, Richard Branson stepping forward and establishing a 
credible operating company, and the market being demonstrated 
by two paying passengers having flown into space on Russian 
launchers have all brought this into focus as being a real 
market and the one that is going to sustain the industry.
    Now, the government has kept pace with this. The Commercial 
Space Launch Amendments Act was the first piece of legislation 
ever to address human passenger space flight. It continued to 
provide for the safety of the uninvolved public, but it does 
not preempt the right of space flyers to take their own 
informed risks, and I highly commend the Congress for 
recognizing individual rights.
    That does not mean that safety of space flyers is not a 
serious issue. This is the other half of the equation. And if 
it is not addressed in legislation, how is it to be ensured? 
This is the foremost concern of the industry.
    And in order to answer the question of how we ensure the 
safety of flight, both out of a concern for human life and also 
for the health of the industry which would be severely damaged 
by unsafe operations, a group of industry leaders met earlier 
this year in January to discuss an industry solution for 
ensuring the safety of space flyers. They developed a plan to 
establish a federally-recognized Industry Consensus Standards 
Organization. The primary purpose of this would be to formulate 
industry Consensus Standards that would ensure the safety of 
space flyers. Any time industry Consensus Standards exist, they 
take the place of Federal regulations.
    Such standards are prevalent in the United States. The best 
example, and I use this for a specific reason, is Underwriters 
Laboratories. Not only electrical devices, but almost every 
hazardous device sold in this country carries a UL stamp of 
approval. This is an independent organization whose stamp of 
approval carries the weight of over a century of experience and 
gives a device both market acceptance and a limit to liability 
for the manufacturer, that people, while they do not have to 
get that stamp of approval, should do nothing else. We believe 
the same stamp of approval will provide the same level of 
safety and protection for both passengers and manufacturers and 
operators of space ships.
    Of course there is only one way to ensure perfect safety, 
and that is not to engage in an activity. If the Government 
regulates the safety aspects of space flyers themselves, we 
think this would be tantamount to prohibiting personal space 
flight as an activity. There is no experience base on which to 
formulate regulations that are similar to the ones that FAA has 
used for years. The only people who are gaining the experience 
that can be applied quickly and in the time required to support 
this industry are the people who are in it themselves. That is 
why we advocate an Industry Standards group, and independent 
one, rather than a Federal regulatory agency.
    Congress has shown its commitment to guaranteeing the 
freedom of this industry to grow as a commercial enterprise and 
maintaining that course is I think something we as an industry 
would like to see happen. We are certainly stepping up to our 
part of the job by taking responsibility for the freedom that 
we do have to trade value for value with people, selling them a 
service to convey them into space with the informed consent 
that they have that this is a risky operation.
    That concludes my oral arguments. I have a much longer 
written statement that I am sure you have questions about.
    Mr. Mica. We will be glad to put the entire statement in 
the record if you would like to submit it. We thank you for 
your testimony.
    We will hear now from Mr. Lou Gomez, program manager of 
Southwest Regional Spaceport, New Mexico. Welcome, sir, and you 
are recognized.
    Mr. Gomez. Thank you, Mr. Chairman, and members of the 
Committee. I want to thank you for this opportunity to brief 
the Committee on the status of the New Mexico Spaceport 
development efforts. I will be briefing you on what we have 
done so far and what our plans are, what our progress is. 
Before I get started, I want to thank the FAA, particularly 
Administrator Marion Blakey and Associate Administrator Patti 
Smith for their continuing support for our program.
    Some of our program highlights in the developing our 
spaceport. From 1994 to 1996, we completed feasibility studies 
for an inland spaceport. From 1966 to 1967, we conducted 
environmental studies and submitted initial license application 
to the FAA. In 1998, we submitted a Statement of Qualifications 
to Lockheed Martin to host the VentureStar program. The 
Lockheed Martin folks told us that our proposal was top rated. 
In 2003, we submitted a proposal to the X Prize Foundation to 
host the X Prize Cup. And in 2004, New Mexico was selected to 
host the X Prize Cup.
    New Mexico has several advantages, including low population 
density, uncongested airspace, altitude advantages, excellent 
weather, and State support, both political and popular.
    This chart here shows the population density of the United 
States. As you take a look at that red circle there, you will 
see where the spaceport is located. Of course, you can see that 
we have very, very low population density and this feeds back 
into the safety problems that you were discussing earlier, 
because one of the things you have to satisfy is the FAA 
requirement for flight safety and being able to meet their 
expected casualty rates. So you can see that helps us 
tremendously in that area.
    The next chart shows the air traffic throughout the United 
States. Again, if you take a look at that red circle, you will 
see that the spaceport is located in an area where there is 
hardly any air traffic. The reason for that is we are adjacent 
to the Army's White Sands Missile Range and they have 
controlled airspace and that limits the air traffic through 
that area.
    The next chart is a chart that we put together using 
VentureStar vehicle performance data. We actually put this in 
our proposal to Lockheed Martin. What we did is we took their 
vehicle performance data, put together this chart, and it 
basically shows that by launching from New Mexico, we are at an 
altitude of 4300 feet and our latitude is 38.2, you can pick up 
almost 3,000 pounds of payload to orbit by launching from New 
Mexico versus some of the other sites in the United States.
    We have excellent weather. Southern New Mexico's benign 
climate is amenable to year-round outdoor work. Major weather 
disturbances such as hurricanes and tornadoes are rare, and we 
have no salt air corrosion.
    The Southwest Regional Spaceport is located in southern New 
Mexico in Sierra County, between Las Cruces and Truth or 
Consequences. It is shown there on the map as the Southwest 
Regional Spaceport. Also shown there to the right in green is 
the White Sands Missile Range and that is what helps us in our 
controlled air space.
    Since winning the X Prize Cup, New Mexico has been working 
to develop the program and required infrastructure. The drawing 
I am about to show you is a conceptual layout that includes 
runways, launch/landing pads, propellant storage areas, vehicle 
assembly buildings, office and control buildings. If you look 
at that chart, this is an actual view of the Southwest Regional 
Spaceport itself. The buildings are conceptual, but the land 
itself is where the spaceport will be located. As you can see, 
there is very, very low population density, it is flat, so that 
helps our flight safety situation.
    As far as issues and concerns, we believe that commercial 
space is an emerging industry that has the potential for 
significant positive impact on the U.S. economy. We ask 
Congress and the regulatory agencies to take a careful approach 
to legislation and regulation of this industry to ensure that 
unintended negative effects do not occur.
    Thank you, Mr. Chairman, members of the Committee, this 
concludes my presentation. I will be happy to answer any 
questions you might have.
    Mr. Mica. Again, I thank you.
    We will now hear from Mr. Will Whitehorn, who is president 
of Virgin Galactic. We appreciate your patience. Welcome, and 
you are recognized, sir.
    Mr. Whitehorn. Thank you very much, Chairman. I will not 
repeat the statement which I have brought forward today. I will 
just make a few comments to endorse those that my colleagues 
have made already.
    This is a fledgling industry. It is an industry which, in 
terms of passenger carrying, is in its infancy, an infancy 
which began last year with the first flights of SpaceShipOne. 
We, as a group of companies involved in the airline industry 
worldwide, we have three airlines operating around the world, 
one of which flies into many cities in the U.S.A., we take 
safety extremely seriously at Virgin Group and we would not be 
entering this industry unless we had a safety culture to bring 
to it.
    One of the reasons that Burt Rutan and Paul Allen have been 
very keen to work with Virgin on the second phase of the 
SpaceShipOne project, we call it SpaceShipTwo, one of the 
reasons they have been keen to work with us is because of the 
culture we bring of being involved in the civil aviation 
industry.
    Virgin has been operating in that industry now for nearly 
30 years and we actually have a unique record worldwide in that 
we have never lost a single passenger in an accident, despite 
operating around the world over 120 aircraft. We have also been 
for nearly ten years now in the rail industry in the U.K., 
where we have introduced the most modern fleet of trains in the 
United Kingdom. We carry 50 million passengers a year in that 
industry. We have never lost a single person in an accident.
    Now we intend to bring this culture to this industry right 
from the word go. But we would not enable ourselves to raise 
the funds to develop this business and order the spaceships 
necessary to create a space industry which would eventually 
lead to a wider commercialization of space and cheap economical 
and safe satellite launching, and eventually space exploration, 
this could not be achieved if it was stifled at birth as an 
industry by a regulatory structure which was designed for a 
mature industry. So we endorse the way that Congress has passed 
an Act which does allow an investment to take place in this 
industry.
    That does not mean to say that as an operator working with 
a manufacturer, Burt Rutan Scaled Composites, we will not make 
safety the highest priority. We intend to build the spacecraft, 
which I have just been in the Mojave Desert contracting to have 
built, the first five spacecraft, we will build them beyond 
what we would regard as a certification of aircraft in the 
United States, that we will take the choices as to how we do 
that and we will work with the FAA to ensure that they consider 
the decisions that we have taken in the circumstances of the 
knowledge that we have at this time to be the best ones. Not 
every decision that is taken in these early years will be the 
right one. But it will be taken in the best and informed way by 
the parties. Mistakes may be made, but they will be learned 
from.
    But given that we have had 1,800 people who have now 
approached us wishing to fly in the early years, and given that 
they read like a textbook of Hollywood, Congress itself, 
international stardom, we are hardly likely to launch space 
flights which will kill these people. It will not be our 
intention to operate in anything but the safest way possible.
    We have put our brand on the line by going into this 
industry. But our $120 million initial investment in buying the 
technology from Paul Allen, and $100 million on building the 
first five spaceships with Burt Rutan is an investment we are 
making in the United States. We intend to operate in the United 
States and we intend to build our second and third operations 
after Mojave in maybe places like New Mexico, Florida, or other 
parts of the USA where spaceports are developed. We are 
intending to do that and invest in building a U.S. company 
because we believe the regulatory environment for doing it is 
the right one and the right decisions have been taken to 
encourage this fledgling industry.
    I personally see it much more in terms of Wilbur and 
Orville Wright. If we see Burt Rutan as being like the Wright 
Brothers in this industry and what we have had before is what 
existed before aircraft were developed in the early 1900s, 
before we had an industry which was based upon transporting 
people across the Atlantic in large ships, large ships which 
were heavily regulated in their construction by the late 19th 
century, in fact, so regulated that they built the world's 
safest ever ship called the Titanic and look what happened 
there. That was the most regulated industry of its time in the 
world.
    Along came the changes that took place in 1903 when two 
brothers built an aircraft that managed to fly and the rapid 
development of that industry which created an industry through 
both the First World War and beyond it, which then got to 
maturity level by 1926 which deserved regulation. It was 
regulated in the United Kingdom first. In fact, the FAA in the 
United States was modelled on the CAA in the U.K., which is the 
world's oldest regulatory structure for aircraft design. That 
development was not right at the beginning. The FAA was not 
created by Herbert Hoover to kill an industry. It was there to 
create a standard for it.
    Now we have learned from those lessons in the aviation 
industry today and we believe that, working with the FAA, the 
new industry that is forming can create those standards of the 
future. As they develop, they can be introduced. And if this 
industry gets it wrong and the FAA gets it wrong, Congress will 
be the first people down the throats of this industry, and I 
will not have a brand worth its name. So we do not intend for 
that to happen. Thank you very much.
    Mr. Mica. Thank you. I thank all of our panelists for their 
testimony. A couple of questions now.
    Mr. Douglass, what do you believe that the FAA's role 
should be in providing safety oversight of commercial space 
transportation industry?
    Mr. Douglass. I think eventually it needs to be pretty much 
the same that it is for airplanes, sir. When you think about 
what is happening today in I guess the term would be human-
rated commercial space systems, we are probably inventing some 
new terminology here because this is such a new thing, many of 
the scientific things that are taking place have already been 
pioneered by the government in various ways.
    For example, this remarkable achievement of SpaceShipOne, 
as remarkable as it is, was achieved almost 40 years ago by 
NASA and Alan Shepard's first suborbital flight. So our 
government and our industry knows a lot more about this kind of 
stuff than let us say the government and the industry did 
during the first 10 or 20 years after the Wright Brothers flew 
their airplanes. Everybody was learning it together in those 
days.
    In this instance, you have a situation where the government 
has invested in this and has made a number of wonderful 
achievements in space, and now the commercial industry is 
following down that path. So we do know a lot more. And I think 
there is a role there for the FAA but it should be as close as 
possible to the way they regulate air traffic.
    Mr. Mica. The U.S. has lost quite a bit of business in the 
commercial space launch industry. As far as U.S. commercial 
space transportation industry, how do you see that competition 
evolving? Now Mr. Whitehorn is pretty optimistic. He felt that 
within our regulatory environment, et cetera, that they could 
launch their project within the United States. Do you think we 
will lose to the international arena if we get too bogged down 
in regulating and sort of protecting the industry against 
itself?
    Mr. Douglass. We certainly have to be mindful of what is 
going on in other parts of the world and we need to have a 
regulatory regime here in the United States that recognizes 
that this is going to end up being a global phenomena. The 
Russians already, as you know, are using their government 
systems to take people up to space for a very large amount of 
money. So one could argue in a sense the Russians are already 
ahead of us in this.
    I think, to be honest with you, Mr. Chairman, people do not 
really know how big this market is going to be. I find what 
some of my colleagues have said today interesting and 
courageous and it is wonderful that people are willing to put a 
lot of money into investing this. But I just cannot sit here 
today and tell you that this is absolutely going to happen. And 
I have a lot of confidence, frankly, in this Committee and 
confidence in Administrator Blakey and Secretary Mineta to walk 
the balance that you need, to regulate when you need to, but to 
give latitude when you need to. I think we have struck a pretty 
good balance so far.
    Mr. Mica. Mr. Gomez, have you given Ms. Blakey a request 
for AIP funding for your project?
    Mr. Gomez. Yes, we have.
    Mr. Mica. Thank you. I thought you would appreciate that 
one.
    Mr. Kelly, you seem to think that there will be some 
inevitable problems and possibly accidents or something to set 
this program back. Somewhere I thought I heard you say that we 
might anticipate some of these possible eventualities, such as 
we have developed with our aviation experience and the 
development of our commercial passenger aviation system. And by 
the same token, I thought I heard you also say that, basically, 
we should stay out of the Government regulation of commercial 
space transportation industry. How do you reconcile those?
    Mr. Kelly. Good question.
    Mr. Mica. Maybe I took something out of context.
    Mr. Kelly. No, no, no. Actually, it is a very good question 
because I want to distinguish among three different things. One 
is, first of all, the regulation that is now in place for 
ensuring the safety of the uninvolved public. That is not only 
an appropriate function of Government, Government is the only 
entity that can do this. It has consequences that go far beyond 
simply the reckless actions of someone flying too close to a 
population area. There are international aspects, treaty, 
national security issues, et cetera. Only the Government can or 
should regulate these things. And it is doing a very good job. 
AST does this through its launch licensing process.
    The second area--I think Administration Blakey made an 
excellent remark--in the early days of personal space flight, 
this is not transportation, this is an adventure activity. That 
is what the first flights are going to be like. People are 
going to be taking risks not in the way they would getting on a 
bus or on an airplane or a train.
    I am impressed with the safety record you have because rail 
travel historically has been the most dangerous of anything. 
Quite an achievement. They are going to be getting on something 
that they know is dangerous, that is all there is to it. It is 
a risky business. And the farther and faster you go, the more 
risky it gets. There will be fatalities. Nobody wants them. It 
is something that the industry and the passengers are just 
going to have to deal with. But they will.
    The industry is going to pose itself to get experience as 
quickly as it can and disseminate it among the developers and 
operators as quickly as they can. It happens now in all other 
industries and this one is no exception. And so for the phase 
of the exploratory and adventure part of this industry, I do 
not think that you can have anything else but a self-regulated 
industry.
    Now when it goes into the mode of having what would be a 
common carrier regular transportation system, I think that is a 
gray area. I think that FAA has done a very good job at 
ensuring passenger safety, there is no question about that. I 
am not sure that it has done the best possible job only because 
Government, by its very nature, takes longer to introduce 
safety innovations than industry does.
    That is not a criticism at all. They do provide a high 
level of safety, there is no question about it, whether it is 
as high as it could be is another question. However, the 
industry to some extent supersedes this anyway. Boeing, for 
example, has a certification regime that incorporates the FARs 
as a subset. Theirs is actually much more stringent than the 
Federal Aviation Agency. That is not true of everybody, but it 
certainly true of some companies.
    Mr. Mica. I thank you for your testimonies. I thank all of 
our witnesses.
    Mr. Costello?
    Mr. Costello. Mr. Chairman, thank you. Mr. Kelly, I was 
going to ask you my first question and it was the last question 
that the Chairman just asked, because I was kind of confused as 
to what the Government's role in your view should be as far as 
regulation and safety.
    And I was going to ask you, if you were saying in your 
testimony, as I read it here, that the industry has higher 
standards, in many cases far superior to the Government, and it 
says in terms of actual safety, ``industry standards are likely 
to be superior to Government regulations,'' and I understand 
the point that you are making, but I was going to ask you to 
kind of clarify what you think the Government's role should be 
and what you think the private sector's role should be. So I am 
glad that you clarified that.
    Mr. Douglass, you made the point, in answer to Chairman 
Mica's question of what the FAA's role should be, you said that 
``eventually'' it should pretty much be the same as it is in 
aviation. I wonder if you would clarify what you mean by that, 
when you say ``eventually'' it should be the same as aviation.
    Mr. Douglass. Well, sir, as you know, we are developing a 
new air traffic control system for our country and the time 
frame that we are looking at is all of the traffic that we 
expect between now and 2025. I think it is reasonable to 
expect, now we are in 2005, that is 20 years from now, that 
this part of our industry will have developed to the point 
where there could potentially be many, many of these launches.
    And just as that air traffic control system is going to 
have to accommodate all kinds of new air-breathing vehicles, 
like we are talking about air taxis, and remotely piloted air 
vehicles and so on, it has got to also be able to accommodate 
both the launch and reentry from space if it is going to occur 
on a routine basis. We cannot have situations where we stop all 
the air traffic on the East Coast every time we do a launch. We 
cannot have air traffic between Los Angeles and the East Coast 
stopped every time we launch something out somewhere in New 
Mexico or Arizona or wherever it is. We have got to have a 
seamless system that works in a coordinated way.
    And so, just looking towards that period of time into the 
future, we think that eventually we ought to be able to have a 
system where you could get a type certificate for the launch 
vehicle that you were using and the reentry vehicle that you 
would come back in and an operator's certificate, just the way 
the FAA does today where all of the things that Mr. Kelly and 
others have talked about today are a part of the certification 
process as you get your type certificate and your operator's 
certificate, and then this would the operate on a relatively 
seamless basis. We do not see it over the long term as being 
feasible to get an individual license for every single launch 
that would occur as these launches begin to become numerous.
    Mr. Costello. Mr. Chairman, I have no further questions.
    Mr. Kuhl. [Presiding.] Are there any other members asking 
questions? Mr. Oberstar?
    Mr. Oberstar. I welcome this panel. I read your testimony 
last night in preparation for today's hearings and was very 
interested in the various comments made.
    Mr. Douglass, I have enormous respect for you and the 
leadership you have provided for the aerospace sector. You have 
been a champion voice, a solid, thoughtful, constructive voice. 
You have all pointed to the great advantages, commercial 
benefits of space travel and certainly of the tantalizing 
challenge to the human spirit of space travel.
    What I do not understand is the statement that you had in 
your statement, Mr. Kelly, saying that ``Federal regulation of 
space flyer safety would almost be''--you used the word 
almost--``the equivalent of outlawing personal space flight.'' 
What do you mean by that? What do you mean by outlawing?
    Mr. Kelly. The restrictions that one would have to place on 
safety provisions for passengers at this stage of our 
knowledge--
    Mr. Oberstar. Give me an example.
    Mr. Kelly. Sure, I will give you an example. Someone had 
asked, and I believe it was you, asked earlier if the FAA would 
permit a plane that did not meet structural safety factors to 
fly if it was likely to fall apart over a city, and the answer 
was, no, and it should not. If the Federal Government decided 
that it was going to say, okay, passengers will not be safe 
unless spacecraft have aircraft structural factors of safety, 
knowing nothing else, that would physically make impossible 
space travel. You cannot have--
    Mr. Oberstar. But if you look at the language that I 
proposed in the course of the debate last fall, with the caveat 
``taking into consideration the inherently risky nature of 
space travel,'' how can that be the equivalent of outlawing 
personal space flight.
    Mr. Kelly. Once again, if you are formulating regulations 
with no experience whatsoever, how do you do it? The FAA--
    Mr. Oberstar. Well, there was no experience in the 1920s.
    Mr. Kelly. Oh, yes, there was 26 years of experience.
    Mr. Oberstar. Sure, there were a lot of fatalities.
    Mr. Kelly. That is exactly right, and--
    Mr. Oberstar. And there was no experience with composites 
when Cirrus began its plan to build an all composite general 
aviation aircraft but as an all composite aircraft. There were 
parts of aircrafts built with composites, but not an all 
composite. They did not know for sure whether the wings should 
go entirely through the aircraft, or whether it should be 
joined somewhere in the mid-section of the aircraft. Those 
matters were all worked out.
    Mr. Kelly. It takes a long time to do that and this 
particular industry is so capital intensive that we cannot 
afford to wait.
    Mr. Oberstar. You cannot afford to thread safety into it?
    Mr. Kelly. No, no, no. You can afford to thread safety into 
it, you cannot afford to thread paranoia into it.
    Mr. Oberstar. No one is talking about paranoia. Do you 
think the FAA is paranoid? Hardly.
    Mr. Kelly. No. I think that a responsible agency--
    Mr. Oberstar. I do not think that is a defensible argument.
    Mr. Kelly. A responsible agency that was charged with doing 
something that no one can do would tend to err on the side of 
caution.
    Mr. Oberstar. I do not think that we are talking about 
something that no one can do.
    Mr. Kelly. No one can do it. There is no experience. There 
is no precedent.
    Mr. Oberstar. Mr. Whitehorn has had experience.
    Mr. Kelly. No, no, no. There is no precedent for the safety 
of flight of spaceships. No matter what--
    Mr. Oberstar. I disagree with your premise. We have a body 
of safety professionals in the Federal Aviation Administration 
who understand how to move toward safety. We do not have zero 
fatality as a goal in commercial aviation, subspace commercial 
aviation. It is a goal of reducing fatalities and reducing 
risk.
    Mr. Kelly. That is another aspect of this, and that is I do 
not think--I take that back. The Administrator recognized that 
this is a risky operation, especially at the beginning, and it 
is. This is inherently a higher risk proposition than regular 
air transportation.
    I disagree, however, that there is any experience base on 
which to formulate regulations. The experience that you have 
from expendable launch vehicles, and the example of Alan 
Shepard's flight into space was cited, is completely 
inapplicable to reusable launch vehicles, and, frankly, the 
experience that we have with airplanes is as well. There is no 
overlap between the two.
    Mr. Oberstar. I do not think that is a defense against 
incorporating safety in the design features of this vehicle.
    Mr. Whitehorn, what safety concerns did you have in moving 
ahead with your launch?
    Mr. Whitehorn. That is a very good question to ask because 
I plan to be on one of the test flights, so I am taking this 
issue particularly seriously in a personal sense.
    Mr. Oberstar. I should think so.
    Mr. Whitehorn. Our view of this issue at Virgin, which is a 
company very experienced in dealing with regulatory authorities 
both in the United Kingdom and in the United States on safety 
issues, and where I think we have a very good track record in 
this area, our view is that we should be building SpaceShipTwo, 
the successor to SpaceShipOne, which will carry the first 
commercial passengers affordably into space, our view is that 
we should be building it above the current standards in 
aviation that exist at the moment. But it is better that we 
spend our investment dollars on doing that than going through 
bureaucratic processes at this stage in the game which may not 
be the right ones.
    You were asking earlier, you were asking Marion Blakey I 
think the question what is it that you do not want to regulate, 
give me an example, I think you asked her. I thought I would 
give you an example of the kind of issues that one has to 
grapple with at this stage where a light touch of regulation in 
the personal sense is probably important.
    Pressure suits is a good example. Pressure suits are worn 
by supersonic fighter pilots, they are worn in space, NASA 
astronauts would wear them on a Shuttle mission, for example, 
they would wear a pressure suit. However, if you were going to 
take space tourists into space where you are not going to have 
years of experience of the individuals, it may be actually 
negative in the safety sense and it may be counter-intuitive to 
design a pressure suit for a commercial space tourist. It may 
be better to design the vehicle that you are taking them in 
with a whole safety regime around the vehicle.
    The vehicle itself that goes into space becomes your 
lifeboat in the event of an incident. You do not rely on the 
extraneous technologies that NASA has relied on which it has 
cobbled together in its 40 years of experience, from oxygen to 
pressure suits, rather than treating the vehicle itself as a 
safety lifeboat in its own right.
    Mr. Oberstar. So you pressurize the vehicle, not the 
individual.
    Mr. Whitehorn. Not only pressurize the vehicle, but you 
think of how you design their experience so that when they 
experience the G-forces they do not need a pressure suit to be 
safe in that reentry. That is new and blue sky thinking where a 
very heavy regulatory regime at this stage would actually 
potentially force us away from the safest thing to do once we 
have considered it.
    Mr. Oberstar. You fear an FAA or a safety regulatory 
regime--
    Mr. Whitehorn. I have no fear of the FAA, sir.
    Mr. Oberstar.--that would come in and impose upon you some 
regulation of this kind. That is not the way the FAA operates. 
They work with the manufacturer in the development of new 
design aircraft, for example. If in your case--
    Mr. Whitehorn. Let me put it this way. There has been a lot 
of experience built up in this industry--
    Mr. Oberstar. Just a minute. If, in your case, you are 
convinced that pressurizing the aircraft rather than the 
individual within the aircraft is safe, do you think the FAA is 
going to say oh, no, I do not think so. They are going to work 
with you to develop that idea.
    Mr. Whitehorn. Well, actually, we would be pressurizing the 
craft anyway. We are talking about a pressure suit to protect 
you against G-forces, not for breathability. But just let me 
give you an example. The received wisdom as it would be laid 
down by NASA would necessarily dictate that you cannot send 
somebody into space experiencing these G-forces unless you put 
them in a pressure suit.
    In fact, experience has told us that you can now design the 
entire craft and the person's position in the craft with the 
freedoms that we would have to do that because of the nature of 
the beast that we are creating, which is something to carry 
people into space for the experience of the adventure. We may 
be able to design a craft in a safer way by ignoring that 
received wisdom and experience at this stage, that received 
wisdom and experience developed in a governmental program 
designed around an entire range of goals which are not 
necessarily goals about safety. The Apollo space program was 
not a program designed with safety as the first priority, it 
was designed with getting to the Moon as the first priority.
    Actually, as I said in the testimony, our project here, 
given the nature of the worldwide business we operate and the 
brand we have, safety is our first priority. It may not even be 
the FAA's first priority at this stage in the project. It may 
not even be the first priority of other aspects of the 
industry, those who are creating new star relaunchable vehicles 
for satellites. But for our company coming into this business, 
working with Scaled Composites, safety is our first priority.
    Mr. Oberstar. Sure. So I do not understand your fear of a 
regulatory regime within which the FAA is a partner in the 
development of the safety and using its body of expertise over 
many decades to participate in the safety--
    Mr. Whitehorn. I think you will find, Congressman Oberstar, 
that in nothing I have said today nor in my testimony have I 
experienced any fear of that sort. If the regulatory regime 
that had been passed as a result of the Act going through 
Congress in 2004 had introduced different criteria, then we may 
well have worked with those criteria.
    But we are where we are and I am telling you what we are 
planning to do is to operate, in terms of the way we do things, 
to create the safest possible experience for the greatest 
number of people. We are working on the Benthamite principle of 
the greatest happiness of the greatest number as this project 
goes forward and commercial space tourism leads to a new 
industry.
    Mr. Oberstar. Let me just read to you the language of the 
bill, which is the language that I discussed in the course 
debate on the House floor last fall. ``In carrying out 
responsibilities under this provision, the Secretary shall 
ensure that each license approved includes minimum standards to 
protect the health and safety of crews and space flight 
participants, taking into account the inherently risky nature 
of human flight.'' What objection do you find to that?
    Mr. Whitehorn. I do not find any objection to that.
    Mr. Oberstar. Fine. Mr. Douglass, do you find any objection 
to that?
    Mr. Douglass. Sir, I am uninformed by the debate that you 
all had. But my sense of this is that I do not.
    Mr. Oberstar. The only objection was the gentleman from 
California, my dear friend Mr. Rohrabacher, who said, you know, 
I want to get this bill passed now and if we accepted that 
language we might have to go back to conference with the Senate 
and work it out, and we just do not have time to do it, it is 
the end of the session. They did not involve our Committee in 
this process. We could have had this language all done and 
included.
    Mr. Kelly, do you find that language objectionable?
    Mr. Kelly. I am sorry, could you repeat it?
    Mr. Oberstar. I will be happy to do that. ``The Secretary 
shall ensure that each license approved includes minimum 
standards to protect the health and safety of crews and space 
flight participants, taking into account the inherently risky 
nature of human flight.''
    Mr. Kelly. Actually, I have no objection to that. In fact, 
it is part of, or it should be part anyway, of an AST license 
to ensure the crew safety with respect to their being part of 
the safety loop involving third party liability. No, I have no 
objection to that sort of thing at all.
    Mr. Oberstar. You are a wonderful panel. Thank you very 
much. I appreciate your contribution.
    [Laughter.]
    Mr. Whitehorn. And thank you for your enthusiasm, sir.
    Mr. Oberstar. I appreciate it. Thank you.
    Mr. Kuhl. Thank you, Congressman. Is there any other member 
that wishes to question? I do not believe so.
    On behalf of Chairman Mica, let me thank the members of 
Panel III for coming and testifying. We found it very 
interesting and very, very helpful in this process. So thank 
you again for coming. Your participation is certainly 
appreciated.
    Mr. Costello, any last comments?
    Mr. Costello. Just to thank the witnesses for being here.
    Mr. Kuhl. Okay. And thank you, Administrator Blakey, we 
appreciate your attendance here.
    And with that, the Subcommittee is adjourned.
    [Whereupon, at 4:03 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0870.001
    
    [GRAPHIC] [TIFF OMITTED] T0870.002
    
    [GRAPHIC] [TIFF OMITTED] T0870.003
    
    [GRAPHIC] [TIFF OMITTED] T0870.004
    
    [GRAPHIC] [TIFF OMITTED] T0870.005
    
    [GRAPHIC] [TIFF OMITTED] T0870.006
    
    [GRAPHIC] [TIFF OMITTED] T0870.007
    
    [GRAPHIC] [TIFF OMITTED] T0870.008
    
    [GRAPHIC] [TIFF OMITTED] T0870.009
    
    [GRAPHIC] [TIFF OMITTED] T0870.010
    
    [GRAPHIC] [TIFF OMITTED] T0870.011
    
    [GRAPHIC] [TIFF OMITTED] T0870.012
    
    [GRAPHIC] [TIFF OMITTED] T0870.013
    
    [GRAPHIC] [TIFF OMITTED] T0870.014
    
    [GRAPHIC] [TIFF OMITTED] T0870.015
    
    [GRAPHIC] [TIFF OMITTED] T0870.016
    
    [GRAPHIC] [TIFF OMITTED] T0870.017
    
    [GRAPHIC] [TIFF OMITTED] T0870.018
    
    [GRAPHIC] [TIFF OMITTED] T0870.019
    
    [GRAPHIC] [TIFF OMITTED] T0870.020
    
    [GRAPHIC] [TIFF OMITTED] T0870.021
    
    [GRAPHIC] [TIFF OMITTED] T0870.022
    
    [GRAPHIC] [TIFF OMITTED] T0870.023
    
    [GRAPHIC] [TIFF OMITTED] T0870.024
    
    [GRAPHIC] [TIFF OMITTED] T0870.025
    
    [GRAPHIC] [TIFF OMITTED] T0870.026
    
    [GRAPHIC] [TIFF OMITTED] T0870.027
    
    [GRAPHIC] [TIFF OMITTED] T0870.028
    
    [GRAPHIC] [TIFF OMITTED] T0870.029
    
    [GRAPHIC] [TIFF OMITTED] T0870.030
    
    [GRAPHIC] [TIFF OMITTED] T0870.031
    
    [GRAPHIC] [TIFF OMITTED] T0870.032
    
    [GRAPHIC] [TIFF OMITTED] T0870.033
    
    [GRAPHIC] [TIFF OMITTED] T0870.034
    
    [GRAPHIC] [TIFF OMITTED] T0870.035
    
    [GRAPHIC] [TIFF OMITTED] T0870.036
    
    [GRAPHIC] [TIFF OMITTED] T0870.037
    
    [GRAPHIC] [TIFF OMITTED] T0870.038
    
    [GRAPHIC] [TIFF OMITTED] T0870.039
    
    [GRAPHIC] [TIFF OMITTED] T0870.040
    
    [GRAPHIC] [TIFF OMITTED] T0870.041
    
    [GRAPHIC] [TIFF OMITTED] T0870.042
    
    [GRAPHIC] [TIFF OMITTED] T0870.043
    
                                    

</pre></body></html>
